           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  SUPPLEMENTAL SECURITY INCOME
       PAYMENTS MAILED TO
      FIELD OFFICE ADDRESSES


    April 2007    A-06-06-26140




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, was-te and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM


Date:      April 23, 2007                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Payments Mailed to Field Office Addresses
           (A-06-06-26140)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           complied with policies and procedures governing Supplemental Security Income (SSI)
           payments mailed to Field Office (FO) addresses.

           BACKGROUND

           The SSI program was designed to assure a minimum level of income for people who
           are age 65 or over, or who are blind, aged, and/or disabled and who do not have
           sufficient income and resources to maintain a standard of living at the established
           Federal minimum income level. SSI payments are financed from the general fund of
                                                  1
           the United States Treasury (Treasury).

           On occasion, SSA authorizes recipients to use FO mailing addresses to receive SSI
           check payments. SSA requires FOs to limit approval to last resort situations, keeping
           the number of approved cases to a minimum. FOs should approve use of the FO
           address for recipients who do not reside in a permanent dwelling or do not have a fixed
           home or mailing address. SSA does not allow use of the FO address solely for security
           reasons (e.g. to avoid mail theft). When a FO authorizes use of the FO mailing
           address, the manager must maintain a record of each recipient’s check receipt and
           distribution. SSA policies 2 provide additional recordkeeping and check handling
           procedures. As of June 2006, we identified 3,224 SSI recipients who used FOs as their
           mailing address. We visited eight FOs to assess compliance with SSA procedures.
           The full Scope and Methodology of our review is provided at Appendix B.



           1
               20 C.F.R. § 416.110.
           2
               POMS, GN 02401.050, Use of FO Address.
Page 2 - The Commissioner


RESULTS OF REVIEW
In general, SSA had adequate policies and procedures to control the receipt and
distribution of SSI checks mailed to FOs; however, we noted instances of
noncompliance. For example, FOs did not limit use of the FO mailing address to last
resort situations and did not comply with established recordkeeping and check delivery
procedures. We found that FO personnel either were not aware of established policies
and procedures or they chose to ignore them because they considered them an
administrative burden. Consequently, the effectiveness of controls over SSI payments
mailed to FOs was diminished.

LAST RESORT SITUATIONS

FOs did not limit SSI recipients’ use of FO mailing addresses to last resort situations.
SSA policy states that approvals for requests to use FOs as mailing addresses should
be kept to a minimum and granted to SSI recipients who do not have a permanent
dwelling or fixed mailing address. 3 However, managers at all eight FOs visited admitted
they provided this service to recipients whether or not the recipients were actually
homeless. Managers stated they required some recipients to pick up checks at the FOs
as a means to prevent double check negotiations. Managers also allowed this service
for recipients who complained of problems with home mail delivery. Managers
approved these requests as an accommodation to the recipient populations in their
service areas. By not following SSA policy and expanding use of this service beyond
“last resort” cases, the FOs are increasing their administrative workload and the risk of
errors or misuse.

RECORDKEEPING

FOs did not adequately record or document transactions related to recipient use of FO
mailing addresses. Our visits to eight FOs revealed the following noncompliance
issues:

•     Seven FOs did not have statements from recipients on file to acknowledge the
      check pick-up arrangement. As a result, it was unclear whether the recipient was
      aware of or had been informed of SSA’s expectations regarding the use of the FO
      address.

•     Six FOs did not enforce the requirement to maintain documentation for 3 years.
      Instead, these offices destroyed the records after a shorter period of time.

•     Four FOs did not maintain a master list of approved cases. Without this list, the
      FOs could not determine how many SSI checks to expect, verify if all checks were
      received, or identify unauthorized additions or deletions to the list.


3
    POMS, GN 02401.050 A, Use of FO Address.
Page 3 - The Commissioner


•   Two FOs did not properly record the receipt and distribution of checks received at
    the FO mailing address. One FO had recipients acknowledge check receipt by
    signing copies of each check. Although the FO kept the signed copies on file, the
    copies did not record the initials of the SSA disbursing official and did not always
    indicate the date checks were received in the FO. The other FO used a check
    control log, but only recorded check information on the log when the recipient picked
    up the check. Prior to recipient pick up, the FO maintained no record of these
    checks.

FO personnel stated they were not aware of these requirements.

CHECK DELIVERY

None of the eight FOs returned checks to the Treasury after 7 business days as
required. Instead, FOs typically held checks for 30 days or more without returning them
to the Treasury. Review of check logs at one FO revealed that a recipient’s June, July,
and August 2006 SSI payments were held until a FO employee disbursed all three
checks to the recipient’s representative payee on August 31, 2006. Further, contrary to
SSA and Treasury policy, this FO forwarded SSI checks to other servicing FOs, local
addresses, and even Post Office boxes. According to FO personnel, they did not return
checks to Treasury after 7 business days to avoid the administrative burden of
processing the returns and issuing replacement checks. FO personnel who forwarded
the SSI checks were not aware this practice was prohibited.

CONCLUSION AND RECOMMENDATIONS

FOs did not comply with policies and procedures governing SSI payments mailed to FO
addresses. FOs expanded use of SSA mailing addresses beyond “last resort” cases
and did not maintain adequate records of related transactions. Further, FOs did not
return timely undelivered checks to Treasury and forwarded checks contrary to SSA
and Treasury regulations. FO personnel were not aware of the specific policies and
procedures governing this process or believed these procedures were an administrative
burden. Keeping the number of approved situations to a minimum and following
established recordkeeping and check handling procedures helps ensure transactions
are properly approved and SSI payments are effectively safeguarded.

We recommend SSA:

1. Evaluate whether policies concerning the use of FO mailing addresses should be
   expanded to other circumstances such as double check negotiation prevention or
   home mail delivery problems.

2. Ensure compliance with policies concerning returning checks to the Treasury after
   7 business days, or implement a revised policy consistent with sound management
   practices.
Page 4 - The Commissioner


3. Provide FOs with refresher training on policies and procedures regarding a
   recipient’s use of the FO mailing address.


AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of the
Agency’s comments.

OIG RESPONSE

We appreciate the comments received from SSA and believe the response and
planned actions adequately address our recommendations.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
FO         Field Office
POMS       Program Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
SSN        Social Security Number
Treasury   Department of the Treasury
                                                                      Appendix B

Scope and Methodology
In June 2006, we researched the Supplemental Security Income (SSI) Record System
and determined that 3,224 SSI recipients listed Social Security Administration (SSA)
Field Office (FO) mailing addresses for pick up of their benefit checks. To ensure
geographic dispersion, we identified and visited the FOs with the most recipients using
its mailing address in the Dallas, San Francisco, and Chicago Regions. We identified
and visited an additional five FOs within these regions that had a high number of
recipients using their mailing addresses. These 8 FOs (listed below) are among SSA’s
top 10 FOs nationwide in terms of the largest number of recipients using their mailing
address for pick up of their benefit checks:

•   Houston, Texas
•   Merced, California
•   North Las Vegas, Nevada
•   North Sacramento, California
•   Van Nuys, California
•   Akron, Ohio
•   Cleveland Downtown, Ohio
•   Cleveland Northwest, Ohio

We also:
•   Reviewed applicable laws, regulations and SSA’s policies and procedures governing
    SSI checks mailed to SSA FOs.
•   Interviewed FO staff regarding polices and procedures used in establishing,
    receiving and delivering checks that are mailed to FOs.
•   Reviewed available check receipt and distribution documentation for a total of
    353 recipients using these FO’s mailing addresses.
•   Reviewed prior Office of the Inspector General and Government Accountability
    Office reports, and found none related directly to our objectives.

We conducted field work from June 2006 through November 2006 in the eight FOs and
at SSA’s Regional Office in Dallas, Texas. The entity audited was the Office of the
Deputy Commissioner for Operations. We did not test the general or application
controls of SSA systems that generated electronic data used for this audit. Instead, we
traced selected transactions to source documents and performed other validation tests,
and found the data to be sufficiently reliable to meet our audit objectives. We
conducted this audit in accordance with generally accepted government auditing
standards.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      March 30, 2007                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "Supplemental Security Income Payments
           Mailed to Field Office Addresses" (A-06-06-26140) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.


           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “SUPPLEMENTAL SECURITY INCOME PAYMENTS MAILED TO FIELD
OFFICE ADDRESSES” (A-06-06-26140)

Thank you for the opportunity to review and provide comments on this draft report. This report
reviewed cases where Supplemental Security Income recipients were using the Field Office (FO)
address as their mailing address as of June 2006. Since that time, SSA has taken steps in our
security guides and reviews to alert Regional and FO staff of the policies and procedures that
have been in place regarding benefit payments being mailed to FO addresses. In July 2006,
questions were added to the guide used for regional security reviews that outlined issues
regarding control, record maintenance, and retention of logs, security of checks and the
timeframe for the return of checks to the Department of the Treasury (Treasury). In
October 2006, the annual review guide, used by the Regional Area Directors, and the Onsite
Security Control Audit Review guide used by Deloitte and Touche (auditing firm that conducts
security reviews at FOs), were revised to include questions related to benefit payments mailed to
FOs. Additionally on October 25, 2006, reminders regarding refund, remittance and check
processes were included in the Annual Security Reminders (AM-06208) that were released to all
Regional Offices and FOs.

Recommendation 1

Evaluate whether polices concerning the use of FO mailing addresses should be expanded to
other circumstances such as double check negotiation prevention or home mail delivery
problems.

Comment

We agree. We will reevaluate our policy to determine if there is a need to increase the acceptable
reasons for which a benefit recipient may utilize the FOs mailing address as his or her current
address to obtain benefit payments. If we determine there is a need to change the current policy,
we will communicate that change to the FOs through the proper steps. We expect to complete
the evaluation by the end of fiscal year (FY) 2007.

Recommendation 2

Ensure compliance with policies concerning returning checks to the Treasury after 7 business
days, or implement a revised policy consistent with sound management practices.

Comment

We agree. We will reevaluate our policy to determine if FOs should hold recipients’ checks for
more than 7 business days. If, after our evaluation, we determine that we should continue our
current policy of returning checks to the Department of Treasury after 7 business days, we will
ensure this policy is communicated to FO employees through reminders and training. Of course,



                                               C-2
if we decide that we need to change the retention period policy, we will communicate that change
to the FOs through the proper steps. We expect to complete the evaluation by the end of
FY 2007.

Recommendation 3

Provide FOs with refresher training on policies and procedures regarding a recipient’s use of the
FO mailing address.

Comment

We agree. Once we have addressed the issues related to recommendations 1 and 2, we will
develop and conduct any necessary training or release any needed reminders to the FOs.




                                               C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments

In addition to those named above:

   Ashley D. Moore, Auditor-in-Charge

   Joshua M. Campos, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-26140.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
